No. jL O ' /5^°
TOJie

Supreme Court of tje Mntteb Stateo
THE CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM
Petitioners,
v.
RUDOLPH CONTRERAS
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The District Of Columbia Circuitr

BRIEF FOR PETITIONER

FILED
APR 2 h 2021
OFFICE OF THE CLERK
SUPREME COURT. IIS

The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
646-675-0308
Counsel for Petitioner

The complaint of the plaintiff, -god's servant, Xiu
Jian Sun, the spiritual Adam respectfully shows and
alleges as follows
1. The Lord god of hosts Jehovah, sent messenger
through the angel answers to the defendant
Rudolph Contreras-Pharisees said: ‘snake, belly
home's walking.’
2. A Book of Doctrine and Covenants Section 101
81). Now, unto what shall I liken the children of Zion?
I will liken them unto the parable of the woman
and the unjust judge, for men ought always to
pray and not to faint, which saith—
82). There was in a city a judge which feared not God,
neither regarded man.
83). And there was a widow in that city, and she came
unto him, saying: Avenge me of mine adversary.
84). And he would not for a while, but afterward he
said within himself: Though I fear not God, nor
regard man, yet because this widow troubleth me
I will avenge her, lest by her continual coming she
weary me.
85). Thus will I liken the children of Zion.

11

86). Let them importune at the feet of the judge;
87). And if he heed them not, let them importune at
the feet of the governor:
88). And if the governor heed them not, let them
importune at the feet of the president:
3. Jehovah, - the Lord god of host gives the words to
servant (Plaintiff) in the temple he made, “Trial
with god's law. Apply for jury to prevent
insult and unfair behavior.”

Ill

LIST OF PARTIES

Petitioners:
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
Respondent:
Rudolph Contreras

IV

Apply for a Mandarin
Chinese interpreter

Clerk's Office:
I (Servant) Petitioner would like to request a
^ Mandarin Chinese court interpreter for my appeal
court day.
Thank you.
The Church of Jesus Christ of Latter-day saints
Servant:
Xiu Jian Sun, the spiritual Adam

V

TABLE OF CONTENTS

Questions Presented

1

List of Parties

in

Apply for a Mandarin Chinese interpreter

IV

1

Jurisdiction

Constitutional and Statutory Provisions Involved .... 3
Statement of the Case

5

Reasons for Granting the Writ

6

Conclusion

7

INDEX TO APPENDICES
Appendix A:
United States Court of Appeals for District of
Columbia Circuit: 20-5293
20-5293 Docket, General Docket...................... A1-A6

1
JURISDICTION
USCA Case #20-5293 Document #1885661
Filed: 02/17/2021 Page 1 of 2
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 20-5293

September Term, 2020
l:20-cv-00197-EGS
Filed On: February
17, 2021

Church of Jesus Christ of Latter-day Saints,
Appellee
Xiu Jian Sun, The Spiritual Adam,
Appellant
v.
Rudolph Contreras,
Appellee
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF
COLUMBIA
BEFORE: Katsas and Walker, Circuit Judges, and
Sentelle, Senior Circuit Judge
JUDGMENT
This appeal was considered on the record from the
United States District Court for the District of
Columbia and on the brief filed by appellant. See Fed.
R. App. P. 34(a)(2); D.C. Cir. Rule 34(j). It is

2

ORDERED AND ADJUDGED that the district
court’s order filed July 16, 2020 be affirmed. Appellant
has shown no error in the district court’s dismissal of
the case for lack of subject matter jurisdiction and on
the ground that the complaint failed to state a claim
upon which relief may be granted. See, e.g.. Ashcroft v.
Iqbal. 556 U.S. 662, 678 plaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’”) (2009) (“To survive
a motion to dismiss, a com (quoting Bell Atl. Corn, v.
Twomblv. 550 U.S. 544, 570 (2007)); Toolev v.
Nanolitano. 586 F.3d 1006, 1009 (D.C, Cir. 2009) (“A
complaint may be dismissed on jurisdictional grounds
when it is patently insubstantial, presenting no
federal question suitable for decision.”) (internal
quotation marks omitted).
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to withhold
issuance of the mandate herein until seven days after
resolution of any timely petition for rehearing or
petition for rehearing en banc. See Fed. R. App. P.
41(b); D.C. Cir. Rule 41.
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
Is/
Daniel J. Reidy
Deputy Clerk

3

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

1. The Doctrine and Covenants Section 20
Revelation on Church organization and government,
given through Joseph Smith the Prophet, at or near
Fayette, New York. Portions of this revelation may
have been given as early as summer 1829. The
complete revelation, known at the time as the Articles
and Covenants, was likely recorded soon after April 6,
1830 (the day the Church was organized). The Prophet
wrote, “We obtained of Him [Jesus Christ] the
following, by the spirit of prophecy and revelation;
which not only gave us much information, but also
pointed out to us the precise day upon which, according
to His will and commandment, we should proceed to
organize His Church once more here upon the earth.”
1). The rise of the Church of Christ in these last days,
being one thousand eight hundred and thirty years
since the coming of our Lord and Savior Jesus
Christ in the flesh, it being regularly organized and
established agreeable to the laws of our country, by
the will and commandments of God, in the fourth
month, and on the sixth day of the month which is
called April—
2. The Doctrine and Covenants Section 42
83). And thus ye shall do in all cases which shall come

4
before you.
84). And if a man or woman shall rob, he or she shall
be delivered up unto the law of the land.
85). And if he or she shall steal, he or she shall be
delivered up unto the law of the land.
86). And if he or she shall lie, he or she shall be
delivered up unto the law of the land.
87). And if he or she do any manner of iniquity, he or
she shall be delivered up unto the law, even that of
God.
88). And if thy brother or sister offend thee, thou shalt
take him or her between him or her and thee alone;
and if he or she confess thou shalt be reconciled.
89). And if he or she confess not thou shalt
deliver him or her up unto the church, not to the
members, but to the elders. And it shall be done in
a meeting, and that not before the world.
90). And if thy brother or sister offend many, he or she
shall be chastened before many.
91). And if any one offend openly, he or she shall be
rebuked openly, that he or she may be ashamed.
And if he or she confess not, he or she shall be
delivered up unto the law of God.

5

STATEMENT OF THE CASE

1. The Lord god Jehovah sent the messenger, said to
spiritual Adam through the angel, ‘unjust judge.’
2. On the date of March 09, 2017, when the
notification from United States District Court
Eastern District of New York is received, Jehovah,
-the Lord god of host sent the messenger speaks
to spiritual Adam, -plaintiff through angel, says:
"Pharisees don't even open the door"1
3.

1

Jehovah, the Lord god of host, sent the son of god,
(the revived Messiah) from God's temple gave
words to servant, said:' Pharisees1 not even
move his one finger."

Civil Docket for Case #: l:16-cv-01083- ENV-CLP, Courtof Appeals Docket#:
16-950.

2

Civil Docket for Case #: 1:17-cv- 1861-JDB, Court of Appeals Docket #: 18-5313.
USCADC No. 18-5313

6

REASONS FOR GRANTING THE WRIT

After ruling by the Small Claim Court, these are
the works given by Israeli God from Lord’s temple,
“The civil magistrate should restrain crime, but never
control conscience, should punish guilt, but never
suppress the freedom of the soul.”

i

7
CONCLUSION

The Doctrine and Covenants Section 42
92. If any shall offend in secret, he or she shall be
rebuked in secret, that he or she may have
opportunity to confess in secret to him or her
whom he or she has offended, and to God, that the
church may not speak reproachfully of him or her.
93. And thus shall ye conduct in all things.

Dated: Queens, New York
April 23, 2021
The Church of Jesus Christ of Latter-day saints
Servant:
Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
(646) 675-0308
Plaintiffs

